No. 20-6050
IN THE

Supreme Court of the United States
JAMES ANTHONY MARTIN,

Petitioner,

v.
COMMONWEALTH OF MASSACHUSETTS,
Respondent.
On Petition for a Writ of Certiorari
to the Supreme Judicial Court of Massachusetts
CERTIFICATE OF SERVICE

I am a member of the Bar of this Court, and I hereby certify pursuant to
Supreme Court Rules 29.3 and 29.5 that I have, this 17th day of February, 2021,
served the Reply Brief for Petitioner upon each party separately represented in this
proceeding by causing an electronic copy of the same to be delivered to counsel of
record at the e-mail addresses listed below:
Tara L. Johnston
Thomas Edward Bocian
Anna E. Lumelsky
Massachusetts Attorney General’s Office
One Ashburton Place
Boston, MA 02108
tara.johnston@mass.gov
thomas.bocian@state.ma.us
anna.lumelsky@mass.gov
Pursuant to the Court’s November 13 Order, I certify that all parties have
agreed to accept such electronic service in lieu of service of paper copies. I further
certify that all persons required to be served have been served.

In addition, pursuant to Supreme Court Rule 29.7, I certify that I have
caused electronic copies of all documents to be filed with the Clerk.

____________________________
WILLIAM M. JAY
GOODWIN PROCTER LLP
1900 N Street, N.W.
Washington, DC 20036
wjay@goodwinlaw.com
(202) 346-4000
February 17, 2021

Counsel for Petitioner

